<html>
<title> - NOMINATION HEARING OF JAMES EDWIN TRAINOR III FOR COMMISSIONER OF THE FEDERAL ELECTION COMMISSION</title>
<body><pre>[Senate Hearing 116-195]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 116-195
 
                   NOMINATION HEARING OF JAMES EDWIN
                  TRAINOR III FOR COMMISSIONER OF THE
                      FEDERAL ELECTION COMMISSION

=======================================================================

                                HEARING

                               before the

                 COMMITTEE ON RULES AND ADMINISTRATION
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 10, 2020

                               __________

    Printed for the use of the Committee on Rules and Administration
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    


                  Available on http://www.govinfo.gov
                  
                  
                            ______                      


             U.S. GOVERNMENT PUBLISHING OFFICE 
40-360 PDF            WASHINGTON : 2020          

                  
                  
                 COMMITTEE ON RULES AND ADMINISTRATION

                             SECOND SESSION

                     ROY BLUNT, Missouri, Chairman

MITCH McCONNELL, Kentucky            AMY KLOBUCHAR, Minnesota
LAMAR ALEXANDER, Tennessee           DIANNE FEINSTEIN, California
PAT ROBERTS, Kansas                  CHARLES E. SCHUMER, New York
RICHARD SHELBY, Alabama              RICHARD J. DURBIN, Illinois
TED CRUZ, Texas                      TOM UDALL, New Mexico
SHELLEY MOORE CAPITO, West Virginia  MARK R. WARNER, Virginia
ROGER WICKER, Mississippi            PATRICK J. LEAHY, Vermont
DEB FISCHER, Nebraska                ANGUS S. KING, JR., Maine
CINDY HYDE-SMITH, Mississippi        CATHERINE CORTEZ MASTO, Nevada

                   Fitzhugh Elder IV, Staff Director
                Lindsey Kerr, Democratic Staff Director
                
                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                  Pages

                         Opening Statement of:

Hon. Roy Blunt, Chairman, a U.S. Senator from the State of 
  Missouri.......................................................     1
Hon. Amy Klobuchar, a U.S. Senator from the State of Minnesota...     2
James E. Trainor, III, nominee for Commissioner of the Federal 
  Election Commission............................................     6

                         Prepared Statement of:

Hon. Ted Cruz, a U.S. Senator from the State of Texas............    26
James E. Trainor, III, Nominee for Commissioner of the Federal 
  Election Commission............................................    27

                  Materials Submitted for the Record:

Ms. Hunter's Op-Ed in Politico magazine article dated, October 
  22, 2019, submitted by Hon. Mitch McConnell....................    29
Trainor letter submitted by Hon. Mitch McConnell.................    34
Trainor letter submitted by Hon. Amy Klobuchar...................    37

                  Questions Submitted for the Record:

Hon. Amy Klobuchar, a U.S. Senator from the State of Minnesota to 
  James E. Trainor, III, Nominee for Commissioner of the Federal 
  Election Commission............................................    39


                   NOMINATION HEARING OF JAMES EDWIN
                  TRAINOR III FOR COMMISSIONER OF THE
                      FEDERAL ELECTION COMMISSION

                              ----------                              


                        TUESDAY, MARCH 10, 2020

                               United States Senate
                      Committee on Rules and Administration
                                                    Washington, DC.
    The committee met, pursuant to notice, at 11:06 a.m., in 
Room 301, Russell Senate Office building, Hon. Roy Blunt, 
Chairman of the Committee, presiding.
    Present: Senators Blunt, Klobuchar, McConnell, Wicker, 
Fischer, Hyde-Smith, Schumer, Udall, and Cortez Masto.

  OPENING STATEMENT OF HONORABLE ROY BLUNT, CHAIRMAN, A U.S. 
               SENATOR FROM THE STATE OF MISSOURI

    Chairman Blunt. The Committee on Rules and Administration 
will come to order. Good morning. I am glad that our colleagues 
are beginning to assemble here. Glad to be here with my friend, 
the Ranking Member of the Committee, Senator Klobuchar. We are 
particularly glad, of course, to have Trey Trainor here. Trey 
is joined by his wife, Lucy.
    I would like to recognize the fact that their children, I 
believe, are watching this hearing back home in Texas where 
they are in school. Taking a break for a hearing is one thing, 
taking a break for a couple of days of school, another thing 
entirely. To James and Abigail, to Patrick and Mary Catherine, 
Charles, and Andrew, we are glad to be here with your dad today 
and glad you have a chance to watch this either while we are 
doing it or later today.
    Mr. Trainor is an election law attorney from Driftwood, 
Texas. He has been practicing law for nearly 20 years. He has 
represented candidates, political figures, local governments, 
corporations, and other groups with respect to election law, 
campaign finance law, and ethics. His clients have included the 
Republican Party of Texas, the Texas Secretary of State, and 
President Trump's campaign. He has also served on the U.S. 
Election Assistance Commission's Standards Advisory Board. The 
confirmation of Mr. Trainor would fill a vacancy, correct a 
political imbalance, and, most importantly, create a quorum for 
the Federal Election Commission.
    The FEC plays a vital role for Federal campaign committees. 
As a former Secretary of State, I certainly worked with the FEC 
on a regular basis. Since I was Secretary of State, I have run 
in nine Federal elections and always needed to know that the 
FEC was there if we needed an answer to a question. I know how 
important having the FEC as a fully functioning commission 
would be for Federal candidates, how important it is that we 
have for those candidates FEC guidance and advisory opinions. 
It is always even more true in the election year itself. The 
FEC has been without a quorum since late August of last year.
    Since then, the FEC has not been able to hold hearings, 
make new rules, issue advisory opinions, conduct 
investigations, or approve enforcement actions. In fact, while 
the Commission is authorized to have six Commissioners, it 
currently has only three. The terms of the three remaining 
Commissioners expired years ago--Commissioner Hunter's term 
expired in 2013, Commissioner Walther's in 2009, Commissioner 
Weintraub's in 2007. It should be noted that a full term is six 
years, and Mr. Trainor has been nominated to serve on the FEC 
now several times.
    First nominated in 2018, then again in 2019--first 
nominated in '17, then again in '18, '19, and '20. Since 2013, 
the Senate has received no other nominations to the Federal 
Election Commission. We hear a lot about the FEC and its 
deadlocked decisions, its inability to get things done, but 
without a quorum, the FEC can do exactly nothing. I look 
forward to hearing your testimony today, Mr. Trainor, and I 
look forward to having a quorum at the FEC again. I'm pleased 
now to turn to Senator Klobuchar for her opening remarks.

 OPENING STATEMENT OF HONORABLE AMY KLOBUCHAR, A U.S. SENATOR 
                  FROM THE STATE OF MINNESOTA

    Senator Klobuchar. Thank you very much, Mr. Chairman. Today 
we are here to consider a nominee to the Federal Election 
Commission, the independent agency responsible for enforcing 
our Federal campaign finance laws. I am deeply disappointed 
that my Republican colleagues have departed from the Senate 
tradition of considering FEC nominees on a bipartisan basis.
    We look back and the Senate has voted to confirm 47 FEC 
nominees, and according to the Congressional Research Service, 
42 of those nominees have been confirmed through a bipartisan 
process. The FEC has been, as we know, without a quorum for 192 
days, the longest period without a quorum in the agency's 
history, and I have repeatedly urged my Republican colleagues 
to work with us to get the agency up and running again, but 
abandoning bipartisan norms and pushing forward a controversial 
nominee is not the way to do it.
    Moving forward in this way does more harm than good and it 
isn't what the American people sent us here to do. Americans 
are tired of the hyper partisanship and gridlock, we should be 
working to restore the trust in our political institutions. 
Most Americans don't have the time to study the intricate 
details of our campaign finance laws, but let me tell you, they 
have a pretty good sense that things are broken. They know that 
spending on campaigns has gotten out of control and that 
spending by special interest groups is a major part of the 
problem. Experts project that at least $6 billion will be spent 
in the 2020 election cycle on advertisements alone. That 
doesn't count the billions that would be spent by the campaigns 
themselves and the additional billions spent by dark money 
groups.
    In order for our democracy to work, we need strong rules 
for campaign spending and we need a strong agency to enforce 
the rules. Congress created the FEC for that very purpose, but 
it has been dysfunctional and plagued by partisan gridlock. I 
urge that we pass legislation to change this, to work together, 
to pass my bill to reform the FEC's rules so that it functions 
better. I have legislation that we could have a hearing on if 
we chose, that would establish a working group to investigate 
bipartisan solutions to improve the functioning of the FEC.
    Now, my Republican colleagues have said that by confirming
Mr. Trainor, they will do something good, which is restoring 
quorum, but that is not the full story of this nomination. It 
ignores the fact that gridlock will persist and that 
Republicans have intentionally left a Democratic seat on the 
Commission vacant for more than 1,100 days. It ignores the fact 
that Leader Schumer and I have referred a Democratic candidate 
to the White House for consideration and that she has been 
vetted and cleared. She is mentally qualified and she would be 
the first person of color to ever sit on the FEC. The idea is 
that we would have paired these nominations together.
    The Democratic seat will remain vacant and the agency 
charged with enforcing our campaign finance laws will remain 
ineffective. This is part of a pattern for this Administration 
and it, of course, spans across many agencies. Now on the topic 
of the nominee, Mr. Trainor. Today, we are asked to consider 
appointing someone to the FEC who doesn't believe in the basic 
campaign finance law. As former Republican FEC Chairman Trevor 
Potter put it, ``Trainor's nomination is another example of how 
the current nomination process produces Commissioners who are 
opposed to the mission of the agency, resulting in an explosion 
of secret spending in elections.'' That is a quote from a 
fellow Republican.
    Throughout your career Mr. Trainor you have consistently 
worked to dismantle the rules that keep corruption out of our 
political system. You have spent a career arguing that people 
shouldn't have to disclose political spending and fighting to 
defund the Texas Ethics Commission for enforcing campaign 
finance rules. Your views on disclosure are inconsistent with 
decades of Supreme Court precedent, including the views of the 
late Justice Scalia.
    When fellow Republicans in the Texas legislature work to 
require politically active nonprofit organizations to disclose 
their donors, you challenged them and said that such a law 
would have a chilling effect on anybody's ability to speak. You 
have worked to support voter ID laws. You have helped groups 
work to purge voter rolls. You believe that the Supreme Court 
got Citizens United right. You have worked to distort district 
maps in Texas and you don't believe that states with a history 
of discriminating against minority voters should have their 
maps reviewed by the courts.
    That is why Trevor Potter made that statement. It is just 
not me making this statement. These are not consistent views 
with where the American people are. A recent Gallup poll found 
that 80 percent of Americans are dissatisfied with how we 
handle campaign finance in this country. That is the highest 
dissatisfaction rate since they started asking the question in 
2001, and 77 percent of the public say that there should be 
stronger limits on spending in campaigns.
    When it comes to the agency in charge of enforcing our 
campaign finance laws, the minimum, the absolute minimum 
qualification should be that the person actually believes in 
the mission of the agency. I look forward to hearing the 
testimony today. Thank you.
    Chairman Blunt. Senator Cruz had hoped to be here today and 
introduce the nominee. I am going to insert his statement in 
the record. He talks about his long association with the 
nominee and his confidence that the nominee will be a great 
addition to the Commission.
    [The prepared statement of Senator Cruz was submitted for 
the record.]
    Chairman Blunt. Do you have a statement, Mr. Trainor? Why 
don't you go ahead and we have your statement--your filed 
statement----
    Senator McConnell. Mr. Chairman----
    Chairman Blunt. Do you want to ask questions before he 
makes a statement?
    Senator McConnell. What I would like to do is make a 
statement and ask a couple of questions, and--is that okay?
    Chairman Blunt. Any objection?
    Senator Klobuchar. Nope.
    Chairman Blunt. Without objection, we will let the Majority 
Leader who is a member of this committee make his statement and 
then we will let him go on to his questions. Mr. Trainor, I 
think we have a number of things going on in other places this 
morning.
    Senator McConnell. I appreciate it, Mr. Chairman, Senator 
Klobuchar. Mr. Trainor, appreciate your being here. It has 
certainly been a long process for you. I am sure nobody is 
happier than you and your family that we can finally move 
forward with this nomination. I have a few questions for you in 
just a moment, but I would like to address some broader issues 
surrounding the Commission.
    Mr. Trainor's nomination would fill one of two Republican 
vacancies, re-establish parity between the two parties, restore 
a quorum, and bring the FEC one step closer to a full slate of 
six Commissioners. But it is somewhat remarkable to remember 
that if confirmed, Mr. Trainor would be the only Commissioner 
serving on an unexpired term--the only one.
    Ms. Hunter, the only remaining Republican appointee, saw 
her term expire in 2013. So did Mr. Walther, one of the 
Democratic appointees. More than 6 years of hold over each. Of 
course
Ms. Weintraub, the most recent Democratic Chairwoman has been 
held over on an expired term since the year 2007. Think about 
that. Her term expired during the Bush 43 Administration. 68 of 
the 100 United States Senators began their Senate service after 
Ms. Weintraub's term had already run out.
    Between the three current Commissioners combined, we are 
talking about nearly three decades of continued service since 
the expiration of their terms. To any of the colleagues who 
might suggest they feel the FEC is dysfunctional or who wish to 
propose that its fundamental makeup, which has served us since 
Watergate, should be altered, I would suggest that what we 
actually need to do is have the Commission fully functioning as 
it already exists, totally filled out, clean slate of 
Commissioners all serving on real, unexpired terms to bring new 
energy, build new relationships, and inject some new 
perspective. Let's not leave this critically important body 
undermanned and filled with exclusively people serving past the 
end of their terms, and then pretend that the problem is the 
underlying bipartisan architecture of the Commission itself.
    Confirming Mr. Trainor will restore a quorum and restore an 
even balance between the two parties' appointees. I am 
optimistic we will be able to move forward with this nominee 
and take one important step back toward where we ought to be. 
But more broadly, I would hope that all of us on the Committee 
on both sides would be able to agree that we should aim for a 
new, clean slate of Commissioners on both sides. This is a 
concept which the current chairwoman has herself suggested. Mr. 
Chairman, I ask that Ms. Hunter's Op-Ed in Politico magazine 
dated October 22, 2019 be entered in the record.
    Chairman Blunt. Without objection.
    [The information referred to was submitted for the record.]
    Senator McConnell. It is also a concept that has been 
supported by election law practitioners on both sides of the 
aisle. I would ask that a letter dated January 6, 2020 signed 
by 31 election law practitioners be entered into the record.
    Chairman Blunt. Without objection.
    [The information referred to was submitted for the record.]
    Senator McConnell. Now, Mr. Chairman, with your indulgence, 
I have got three questions and I would really appreciate the 
opportunity to wrap this up. Mr. Trainor, what is the source of 
campaign finance law?
    Mr. Trainor. Thank you for your question. The source of 
campaign finance regulation is--first and foremost the 
touchstone for us is the First Amendment, and it is the fact 
that the Supreme Court has allowed campaign finance regulation 
as an exception to the First Amendment. We always go to that 
original source, the First Amendment, and then we look to the 
statute that Congress has passed and have been upheld by the 
courts.
    Senator McConnell. What do you view as the role of the FEC?
    Mr. Trainor. I view the role of the FEC first and foremost 
as one of giving the American people confidence in our 
electoral system with the disclosure requirements that we 
currently have. People visit the website on a daily basis to 
see what type of money is being given to elected officials. 
That is a critical role. It helps to deter corruption in our 
Governmental system. That is the primary function that they 
serve.
    Senator McConnell. Some of our Democrat colleagues are 
always saying that the FEC fails to enforce the law. Do you 
think the FEC fails to enforce the law as some of our 
colleagues on the other side have suggested?
    Mr. Trainor. I do not. In fact, if you look at the FEC, 
there are automatic fines that come from the FEC on a regular 
basis because they have taken the administrative process and 
automated it so that if people miss filing deadlines, they have 
automatic fines that are applied to them. The agency is in fact 
enforcing the law. Even now without a quorum, they are 
enforcing the law.
    Senator McConnell. Mr. Chairman, thank you for your 
indulgence. This is a subject I have had an intense interest in 
over the years. We all may remember McConnell v. FEC----
    Mr. Trainor. Very much so.
    Senator McConnell. I thank you very much for giving me an 
opportunity to parachute in here and make some observations. 
Thank you.
    Chairman Blunt. Thank you, Leader, and thanks to my 
colleagues for allowing that to happen. Mr. Trainor, why don't 
we go ahead and have your opening statement and then we will go 
to Senator Klobuchar for questions right after that.

OPENING STATEMENT OF JAMES E. TRAINOR III TO BE COMMISSIONER OF 
                THE FEDERAL ELECTION COMMISSION

    Mr. Trainor. Thank you. Chairman Blunt, and Ranking Member 
Klobuchar, and members of the committee, it is an honor to 
appear before you as President Trump's nominee for the position 
of Commissioner of the Federal Election Commission. Before I 
begin, I would like to introduce my wife, Lucy. She is the 
mother of our six children, as the chairman stated, James, 
Abigail, Patrick, Mary Catherine, Charles, and Andrew. I am so 
very pleased and proud to have her here with me today as I 
could not have had any success in my career up to this point 
without her unwavering support. I would also like to thank my 
parents Jim and Teresa.
    Unfortunately, my father cannot be here with us today and 
my mother passed away in 2011, but I know that they are both 
here in spirit with me. I would also like to thank my 
grandmother Wanda who has always been one of my biggest fans 
and I know she is watching right now. Finally, I would like to 
thank my friends and family, both those that are here today 
supporting me and those watching for their support and 
encouragement as I have engaged in this process since my 
original nomination in September 2017.
    Lucy and I are from the unincorporated area of Hays County, 
Texas, near a little town called Driftwood, population 144. We 
are both proud graduates of Texas A&M University, where I was a 
member of the Corps of Cadets, and I am a proud veteran of the 
U.S. Army Reserves. It is a privilege for me, as someone who 
isn't intimately ingrained in the Washington, DC legal 
community, to be considered for this position and to testify 
regarding my qualifications and interest in serving as an FEC 
Commissioner.
    As you know, the FEC's mission is to protect the integrity 
of the Federal campaign finance process by providing 
transparency and fairly enforcing and administering Federal 
campaign finance laws. The origins of campaign finance 
regulation in America date back to President Theodore 
Roosevelt's Administration and evolved greatly from 1907 to the 
present. In 1971, Congress created the current regulatory 
environment by enacting the Federal Election Campaign Act and 
instituting stringent disclosure requirements for Federal 
candidates, political parties, and political action committees. 
Congress amended the Federal Election Campaign Act in 1974 to 
set limits on contributions by individuals, political parties, 
and PACs, and establish the independent agency that we know as 
the FEC, which has been operating since 1975.
    Over the past 40 years, the FEC has served an important 
function in our Republic by providing the American people 
assurances against political corruption through the disclosure 
process. Moreover, it has provided the regulated community, 
those of you who are elected officials, candidates, and 
political action committees, with guidance on how best to work 
within the confines of the law. Having graduated from what is 
today Texas A&M University School of Law, I have been 
practicing law in this area for over 15 years. The vast 
majority of that time has been spent advising political 
candidates, PACs, and organizations on compliance with mostly 
state and some Federal election laws.
    I particularly pride myself on working closely with my 
clients to avoid instances that would trigger administrative 
actions. But I also take my ethical obligation to vigorously 
defend my clients, should the need arise, very seriously. If 
the Senate votes to confirm me to this post, I will approach my 
work at the FEC in an objective and methodical manner.
    I fully recognize that the touchstone for all regulation of 
political speech is the First Amendment and that the U.S. 
Supreme Court has held that our current campaign finance 
regulation, particularly the disclosure regime, are an 
allowable exception to the First Amendment for the purposes of 
deterring corruption.
    Accordingly, I will always look to the statutes as passed 
by Congress and adjudicated by the courts as my guide in 
reviewing the matters that come before the FEC to ensure that 
all parties are treated fairly and impartially. Mr. Chairman, 
Ranking Member Klobuchar, and members of the committee, thank 
you for the opportunity to appear before you today and I 
welcome any questions that you may have.
    [The prepared Statement of Mr. Trainor was submitted for 
the record.]
    Chairman Blunt. Thank you, Mr. Trainor. Senator Klobuchar.
    Senator Klobuchar. Well, thank you very much, Mr. Trainor. 
I have a daughter named Abigail too, so there you are, but I 
don't have six kids. First of all, we are going to be having a 
briefing this afternoon actually on foreign interference in our 
election by the intelligence heads and what is happening, and 
efforts made to prevent it from happening again. Do you accept 
reports that Russia interfered in our elections and that our 
elections remain a target for Russia or other adversaries?
    Mr. Trainor. Yes, I believe that there has been foreign 
interference in our elections and I believe that there is still 
the potential for our elections to be targeted by foreign 
entities.
    Senator Klobuchar. Okay. During the 2016 election cycle, 
Russians took advantage of a weak online disclaimer and 
disclosure rules and bought--actually bought political ads, 
some of them in Rubles, some through other groups, and the 
belief is that according to Facebook, responses to 
investigations by the Senate Intelligence and Judiciary 
committee's, Russian disinformation reached more than 126 
million Americans online.
    It is one of the reasons Senator McCain and I introduced 
the Honest Act and now Senator Graham is doing the bill with 
me. It would basically apply the same disclosure and disclaimer 
rules that apply to political ads run on TV, radio, and in 
print to ads run online. Do you support legislation like this? 
Do you think it is something that would be a good idea for the 
FEC to do? This would be requiring disclosure and disclaimer 
rules to apply to online political ads, including issue ads.
    Mr. Trainor. There is a lot to your question there. I will 
say that the statute has prohibited foreign interference in our 
elections from its inception. There has been bipartisan support 
for enforcement of that and I will continue to enforce--to 
prohibit foreign interference in our elections.
    With regard to the disclaimer issues in online ads, I know 
that that is the subject of a rulemaking at the Commission. I 
don't want to sit here today and prejudge something that I may 
have to opine on as far as the rulemaking is concerned. But in 
that sense, the disclosure requirements, I think that the 
comments from all of the regulated community are very helpful, 
and I think that there is a place for consensus among the 
members of the Federal Election Commission to get to a 
disclosure requirement for online ads.
    Senator Klobuchar. Okay. I would emphasize the importance 
of the issue ads as well. Many of these ads that really played 
both sides and like the energy area, pro-pipeline, anti-
pipeline, pro-gun and anti-gun, they were done on both sides to 
basically influence our political process, and I hope that this 
won't just be campaign ads. On Bluman v. FEC, the Supreme Court 
affirmed the decision that upheld the ban on campaign 
contributions and expenditures by foreign nationals.
    However, the lower court opinion left open the possibility 
of unlimited spending by foreign nationals in the United States 
on issue advocacy, the same kind of activity, as I just 
mentioned, that we saw by the Russians in 2016. In fact, a 
Russian company facing charges brought by Special Counsel 
Mueller cited Bluman in arguing to have the charges thrown out. 
I repeat, a Russian company used this opinion to try to make 
the case that they shouldn't be prosecuted.
    As a Commissioner on the FEC, you will be responsible for 
enforcing the laws that ban foreign spending in elections, as 
you just mentioned. You have argued, however, that individuals 
should not have to disclose their donations to issue groups. My 
first question is, should foreign nationals be able to donate 
unlimited sums to issue advocacy organizations?
    Mr. Trainor. With regard to issue ads, it doesn't fall 
within the purview of the Federal Election Campaign Act 
according to the courts. It is very difficult to say that the 
Commission should in fact exercise jurisdiction in that area. 
But I will say with regard to the foreign disclosures, as I 
said before, I will absolutely enforce the statute as written 
to prohibit foreign involvement in our elections.
    Senator Klobuchar. Would this mean that issue advocacy 
organizations would be required to disclose their donors? Are 
you for that?
    Mr. Trainor. Well, there are two court cases that are 
pending with regard to issue advocacy organizations. I know 
that currently based upon the District Court ruling, and it is 
being appealed, but based upon the District Court ruling, the 
FEC is enforcing the disclosure of donors.
    Senator Klobuchar. But do you agree with it?
    Mr. Trainor. Again, I don't want to take any position on 
where the Commission may come down in the appeal, not having 
talked with my colleagues who would be there on what their 
opinion is to where they stand in the appeal, and not having 
talked with counsel for the agency.
    Senator Klobuchar. I will do more questions on a second 
round. Thank you.
    Chairman Blunt. Alright. Senator Hyde-Smith.
    Senator Hyde-Smith. Thank you, Mr. Chairman. Mr. Trainor, 
thank you for being here today. It is very vital that the 
Senate act quickly to get your nomination confirmed because we 
must restore quorum at the FEC so the agency can get back to 
doing what it does.
    Just a couple of things here, due to your previous roles in 
the Administration and in the Republican Party, some 
individuals believe that you must recuse yourself from all 
matters involving President Trump. How will your personal views 
affect decisions that you make or might make on questions that 
come before you as a FEC Commissioner?
    Mr. Trainor. Thank you for your question Senator. My views 
with regard to President Trump--I will approach everyone who 
comes before the Commission objectively. I will look at the 
facts that are presented to me. I will look at the law, and I 
will apply the facts to the law fairly amongst everyone that 
comes before the Commission. With regards to the issue of 
recusal, I have already had conversations with the ethics 
advisors at the Commission.
    I have entered into an agreement with regard to recusals at 
the Commission and I intend to follow the same recusal regime 
that every other Commissioner has followed when matters 
regarding President Trump come up. I will approach the ethics 
officials at the agency and have that discussion with them to 
see when it is appropriate to recuse and when not.
    Senator Hyde-Smith. Do you believe other Commissioners 
should be held to that same standard including any previous 
involvement or comments that they have made about the 
President?
    Mr. Trainor. I do believe that it is very important for all 
of the Commissioners to follow the same regime and for us all 
to be held to the same standard with regard to recusal. Again, 
I think it is one where a close discussion with the ethics 
advisory is important so that we can have appropriate recusals 
when comments may bias an individual's decisions.
    Senator Hyde-Smith. You have expressed the importance of 
bringing better transparency to the FEC, especially so 
candidates and members of the public can have better 
understanding and access to the information collected by the 
agency. Please share with the committee your vision for making 
the FEC a more transparent and accessible organization.
    Mr. Trainor. I will. As a practitioner in this area, I 
often visit the FEC's website to review campaign finance 
reports, to look at the various advisory opinions that are put 
out. The website is very cumbersome and very, very hard to 
search, and I think that that makes it very hard for the public 
to understand exactly what the state of our campaign finance 
regulation is. I would start with looking at making things more 
accessible just from the front line area where people go first 
and foremost to get information about campaign finance.
    Senator Hyde-Smith. Alright. Great. Thank you very much. 
Thank you, Mr. Chairman.
    Chairman Blunt. I have the--the Democrat Leader has joined 
us, who is also on this committee. Senator Schumer, Senator 
McConnell took time for a statement and then some questions and 
we would be glad for you to do the same thing.
    Senator Schumer. Thank you very much, Chair Blunt. I want 
to thank you and our great Ranking Member Amy Klobuchar and all 
the members of this committee. It has been too long since I 
joined you in this committee in a public setting, but 
unfortunately the nominee before us today provided, at least 
from my point of view, an unhappy occasion for a reunion.
    Now, we are here today to consider the nomination of Trey 
Trainor of Texas to serve on the FEC. It is an important 
nomination considering the national election we will have in 
November. Even more so because for the last 6 months, the 
Commission has been unable to fulfill its mission because it 
has lacked a quorum. Now, I agree with my colleagues that we 
need to work toward ending this freeze, but I reject the notion 
that we must rush to confirm just anybody to the post. The 
record of the nominee we have before us, Mr. Trainor, raises 
significant questions about his fitness to carry out the 
Commission's anti-corruption mandate.
    Mr. Trainor has a long career as a conservative political 
operative. He has worked closely with Thomas Hofeller, 
notorious for masterminding Republican gerrymandering schemes, 
to redraw maps that significantly disenfranchise minority 
voters at the local level. Mr. Trainor's former law firm 
described him as being, ``intimately involved'' in Texas' 2003 
redistricting which the Supreme Court deemed in violation of 
the Voting Rights Act. Mr. Trainor has argued the Voting Rights 
Act has become a political tool. The sacredness of this Voting 
Rights Act, making it easier for people to vote, he calls it a 
political tool, and asserted that Section 5, which requires 
certain states and localities to gain Federal approval for 
voting change to ensure it is not discriminatory, has outlived 
its usefulness.
    To have a check on states that might want to take advantage 
of minorities and poor people, and to say that has outlived its 
usefulness when we have seen, ever since the Shelby decision, 
state legislature after state legislature try to take those 
rights away, some of them rather boldly, amazing to me. Mr. 
Trainor's views on public disclosure of campaign finance--of 
campaign donations are also discouraging. In his opening 
statement, Mr. Trainor acknowledged the Supreme Court for 
allowing--allowed for campaign finance regulations to deter 
corruption.
    Unfortunately, however, this late-breaking acknowledgement 
cuts against statements Trainor has made in the past. In 2017,
Mr. Trainor speculated, ``The reason the Federalist Papers were 
published anonymously is because they wanted the effectiveness 
of their ideas to win, not who was saying it, to win the 
arguments, and ultimately, that is what Citizens United has 
decided,'' he said, and why it is such a terrible idea to have 
Citizens United rolled back. I would like the American people 
to know that the Republicans have nominated someone who wants 
to roll back Citizens United, which the overwhelming majority 
of American people support, public disclosure of who is giving. 
It is amazing. We live in a democracy. We live in a democracy.
    In other words, as the Washington Post reported, these 
words from Mr. Trainor, ``appeared to erroneously suggest that 
the Supreme Court's 2010 Citizens United decision endorsed 
anonymous political contributions,'' which anyone who reads the 
case once knows it hasn't. To be clear, the Supreme Court and 
Citizens United said the exact opposite of what Mr. Trainor 
suggested, that disclosure was not only appropriate but 
important for the public to make informed decisions.
    But unfortunately, the Republican Party Leader McConnell, 
has done a 180 degree shift on that. He was for disclosure a 
while ago when he was against campaign finance reform but now 
he is against it and nominating somebody who is against it. 
Here in this case, Mr. Trainor has expressed two diametrically 
opposed views on a crucial issue before the FEC. Are reasonable 
restrictions on the anonymity of donations appropriate or not 
at all?
    I expect my colleagues on the committee have been putting 
these questions to the nominee, but from my perspective, 
looking at
Mr. Trainor's views on other cases concerning voting rights and 
campaign finance, it seems far more likely that his earlier 
opinions are more instructive than his statement given only a 
short time ago before the committee in charge of confirming 
him. Unfortunately, Mr. Trainor appears to fit with a pattern 
in the Trump Administration.
    The Administration has a habit of nominating persons to 
staff or lead Federal agencies despite holding views that are 
very opposite of the mission of the agency: oil and gas lobby 
and some climate skeptics for EPA, chemical industry lobbyists 
for the Consumer Product Safety Commission, the acting head of 
the CFPB believes the agency she now runs shouldn't even exist. 
Here we have a nominee for the FEC whose work has violated the 
Voting Rights Act and who believed, at least at one point, 
significant skepticism of even the most reasonable restrictions 
on campaign finance.
    Mr. Trainor will receive a fair hearing before this 
committee as every nominee should and will likely receive a 
vote before the Senate in the future. Before these votes are 
cast, it is imperative that every member of this body fully 
considers Mr. Trainor's record and weigh what a vote for or 
against his nomination would mean for efforts to limit the 
influence of big, dark money in politics and root out 
corruption at all levels of our political process.
    Thank you, Mr. Chair. I don't have any questions, so I 
thank you.
    Chairman Blunt. Well, thank you, Senator Schumer.
Mr. Trainor, Senator Schumer suggested we were rushing to 
confirm just anybody to the post.
    I would remind my colleagues that we haven't had a nominee, 
except for you, since 2013 with vacancies and expired terms on 
the Commission during that entire time. But you're an attorney 
in private practice as pointed out. You have represented 
clients in the election area. Why are you interested in 
becoming an FEC Commissioner and how do you think your past 
experience qualifies you for this job?
    Mr. Trainor. Thank you for your question, Mr. Chairman. My 
past experience for the 16 years that I have worked in this 
area of the law I think has prepared me well for this position. 
I come to this position with a hope of being able to help to 
achieve the mission of the agency, and that is to give the 
American people confidence in the electoral process through the 
disclosure process that takes place with the money that is 
given to elected officials and that is spent by political 
action committees to support those candidates.
    Chairman Blunt. Both Senator Klobuchar and Senator Schumer 
have mentioned your work on redistricting maps. One, have you 
drawn any of those maps, or two, have you principally defended 
maps? And then, have the courts struck down any of the maps 
that you have worked to defend?
    Mr. Trainor. The answer to your first question with regard 
to the courts having struck down any of the maps, the answer to 
that question is no. I have worked on three redistricting cases 
as legal counsel. I had a client that I represented their 
interest in, and I hope that we would not impute to the lawyer 
the acts of the client. But in all three cases, however, the 
courts have upheld the maps that I worked on.
    I did work with Dr. Hofeller, God rest his soul. He is a 
well-recognized expert in the field, and as a litigation 
attorney, one of the first things that you do when you are 
looking for an expert witness is to ask whether or not someone 
has been certified as an expert witness in Federal court 
before. Dr. Hofeller for over 30 years had been certified as an 
expert witness in Federal court and therefore made an ideal 
witness for my client.
    Chairman Blunt. Does the FEC have any authority over 
redistricting?
    Mr. Trainor. None whatsoever.
    Chairman Blunt. Let's talk about something it does have 
authority over, which would be providing advisory opinions and 
guidance to assist candidates and other campaign committees 
without that guidance, especially first time candidates would 
be required to hire accountants and lawyers that they wouldn't 
need if they had guidance in many cases. If confirmed, what 
would you do to ensure that the FEC is offering candidates and 
other political committees consistent, accurate, and timely 
guidance?
    Mr. Trainor. I think that the advisory role that the 
Federal Election Commission plays is one of the most critical. 
It is how average Americans can participate in the process. If 
you, today, decide to run for Congress, you absolutely have to 
pick up the phone and call a lawyer because of the complex web 
of campaign finance regulations that we have.
    It should be a situation where you can pick up the phone 
and call the Federal Election Commission and ask questions and 
not live in fear of running afoul of the law. I would make it a 
priority for me to expeditiously answer the questions that come 
to the Commission under the advisory process.
    Chairman Blunt. Do you have any ideas for expanding or 
improving the kind of guidance the FEC can give?
    Mr. Trainor. Well, I think the role that they play in going 
around the country and hosting classes where candidates and 
political action committees who want to get started to 
participate, I think, is a critical role that they play. I 
think the more they can get outside of Washington, DC and get 
to talk to average Americans who are interested in this area of 
the law and interested in participating in the political 
process would be a great first step.
    Chairman Blunt. If you are confirmed, you would become the 
fourth vote the agency needs to take the various actions that a 
quorum requires. How will you ensure that you are able to 
quickly come up to speed on the issues pending before the 
agency?
    Mr. Trainor. Well, obviously I have read that they have an 
extensive docket so it would be much like the first year of law 
school. You start cramming on every case that you have, that 
you need to know about. I see myself sitting down with the 
other three Commissioners who are there, getting to know my 
colleagues, and figuring out ways that we can come to consensus 
on as many cases as we possibly can, as quickly as we possibly 
can.
    Chairman Blunt. Thank you. Senator Cortez Masto.
    Senator Cortez Masto. Thank you. Hello, Mr. Trainor. Let me 
followup on Senator Blunt's questioning. I think he asked you, 
how many times have you been involved in redistricting efforts 
and how many times those efforts have run afoul of the law, 
violated the law, and you said none. Is that correct?
    Mr. Trainor. That is correct. I have worked on three 
different redistricting cases----
    Senator Cortez Masto. Were they all in Texas?
    Mr. Trainor. Yes, ma'am.
    Senator Cortez Masto. Okay, so can I ask you, so for 
purposes of, and maybe I need just, and that is why I am 
asking, clarification, in 2006, the Supreme Court held in 
League of United Latin American Citizens v. Perry that the 
Texas legislature violated the Voting Rights Act in redrawing a 
particular District in Southwestern Texas when it adopted the 
plan in 2003.
    Mr. Trainor. Yes.
    Senator Cortez Masto. My understanding is that you were 
involved in that plan in 2003. You coordinated the maps and 
legal aspects of passage and Department of Justice pre-
clearance of HB3. Is that correct?
    Mr. Trainor. No. In 2003, I was a staffer for 
Representative Phil King in the Texas legislature. 
Representative King was the primary author of that particular 
piece of legislation----
    Senator Cortez Masto. You did not work on that or make 
recommendations to legislator King on that legislation?
    Mr. Trainor. At the time, I was not licensed as a lawyer 
until November of that year and the legislature had already 
passed the legislation at that time.
    Senator Cortez Masto. Still, as a staffer you didn't--you 
were not involved in making recommendations to the legislator 
on that on that redistricting or that new law?
    Mr. Trainor. No. I mean, obviously, I worked closely with 
him to help bring in individuals that he needed advice from to 
work on the effort. I helped to coordinate those type of 
meetings for him just like your staff, I am sure----
    Senator Cortez Masto. You became an attorney in November of 
that year?
    Mr. Trainor. November 2003.
    Senator Cortez Masto. You passed the bar?
    Mr. Trainor. Yes.
    Senator Cortez Masto. Officially--so prior to that year, 
waiting to hear----
    Mr. Trainor. Yes. I had taken----
    Senator Cortez Masto.--while you were working for the 
legislator, correct?
    Mr. Trainor. I had taken the bar, yes.
    Senator Cortez Masto. Okay, so but it is true that the 
court found in that case that the legislature had illegally 
carved up Laredo, removing 100,000 Mexican Americans and adding 
a white population to shore up a Republican incumbent?
    Mr. Trainor. That is correct. I believe that to be one of 
the findings in the case.
    Senator Cortez Masto. Did you agree with that court 
decision?
    Mr. Trainor. The findings in the case and the remand all 
get jumbled, and since I wasn't an attorney on them, I don't 
really----
    Senator Cortez Masto. As an attorney now, do you agree with 
that decision?
    Mr. Trainor. I do now. LULAC v. Perry is still very good 
law.
    Senator Cortez Masto. You agree with it?
    Mr. Trainor. Yes.
    Senator Cortez Masto. In Texas, you advocated for defunding 
the Texas Ethics Commission, which is the state's equivalent of 
the FEC, so that it would cease existing. In 2014, you said 
efforts by the Commission to promote transparency for big 
political donors were completely unconstitutional. Why should 
someone who wants to disband his own state's campaign finance 
enforcement agency serve on the enforcement agency for the 
whole country? Can you clarify those statements for me please?
    Mr. Trainor. Absolutely. I would be happy to. The Texas 
Ethics Commission as it is currently constituted is constituted 
in a similar manner that the original Federal Election 
Commission was constituted. That is, that members of the Texas 
Ethics Commission, while they are appointed by the Governor, 
they are actually selected by members of the House and the 
Senate. It exists in the legislative branch of the Texas 
Constitution.
    However, they have overtime been given statutory authority 
to exercise police powers. There is a separation of powers 
issue with regard to the Texas Ethics Commission enforcing laws 
as a legislative body. It is very much in line with the U.S. 
Supreme Court's decision in NRA Victory Fund v. FEC where the 
membership of the FEC was altered to eliminate appointments 
from the Congress to the FEC.
    Senator Cortez Masto. It is the police powers that you said 
are unconstitutional, but you do not believe that in Texas, the 
Texas Ethics Commission should cease to exist?
    Mr. Trainor. The fallback position in Texas under Texas 
law, the fallback position would be that the disclosure regime 
would return to its original place that being the Secretary of 
State's office.
    Senator Cortez Masto. You agree it should cease to exist? I 
guess that is what I am trying to clarify. Do you think it 
should not exist?
    Mr. Trainor. With regard to the functions that it is 
exercising today, it should. It can continue to function for 
its constitutional purpose. When the people of Texas originally 
created the Ethics Commission, it was to evaluate and recommend 
salary increases for members of the legislature. It can 
continue to exist for that purpose.
    For the purpose of exercising police powers and fining 
individuals, which falls exclusively under the Texas 
Constitution to the Executive branch, it would need to cease 
those activities.
    Senator Cortez Masto. The mission of the FEC is to protect 
the integrity of the Federal campaign finance process by 
providing transparency and fairly enforcing and administering 
Federal campaign finance laws. I assume you are here today 
because you believe in the mission of the FEC. Is that correct?
    Mr. Trainor. Absolutely.
    Senator Cortez Masto. Do you think that campaign finance 
laws are being adequately enforced right now?
    Mr. Trainor. I believe that the processes are in place to 
adequately enforce them. I think without a quorum, obviously, 
you can't do that. I think that the situation that we find 
ourselves in, where there is not new energy and new life being 
brought to the agency as Congress originally intended for it 
to, has slowed down that process.
    Senator Cortez Masto. Thank you. I know my time is up. 
Thank you very much.
    Chairman Blunt. Thank you, Senator. The question I asked, 
just to be sure that Mr. Trainor was responding to what I 
asked, was the question I intended to ask was if the court 
struck down any of the maps that you have worked to defend, and 
I meant worked to defend as an attorney. I think that was the 
way you heard the question.
    Mr. Trainor. That is what I heard, yes.
    Chairman Blunt. Senator Udall.
    Senator Udall. Thank you, Chairman Blunt, and let me just 
tell your Ranking Member Senator Klobuchar, we really missed 
her at the press conference for the For the People Act in the 
Capitol, but your name was mentioned and what a good aggressive 
stance you have taken on For the People and comprehensive 
democracy reform. Everybody understood I think.
    Mr. Trainor, your solo nomination hearing today is causing 
a lot of us serious concern. Of the 47 Commissioners confirmed 
before this committee, 32 of them were nominated and confirmed 
in bipartisan pairs. At 68 percent of previous FEC 
Commissioners that were brought before this committee, 
nominated and confirmed on the same timeline. Of the remaining 
15 confirmed Commissioners, 10 were nominated and confirmed in 
bipartisan pairs within 1 month of each other--in bipartisan 
pairs, in 1 month of each other.
    Doing the math, nearly 90 percent of all FEC Commissioners 
were confirmed in bipartisan pairs. I am deeply disappointed 
that the President and my Republican colleagues are moving this 
nomination forward. When Senator Schumer proposed a Democratic 
nominee to the White House last summer, the Democratic seat has 
been purposely kept vacant for 1,100 days. That is 3 years and 
counting.
    This Republican seat has been vacant for 390 days. That may 
be too long but the Democratic seat has been open two years 
longer than the seat the Republicans are now filling. 
Preserving the integrity of our elections is bipartisan 
business. Bringing this nomination before the Rules Committee 
while continuing to scuttle a Democratic nominee not only 
breaks with the tradition of this committee, but also 
reinforces President Trump's agenda to use the FEC as an 
instrument of the Republican Party instead of as an agency to 
impartially enforce the Nation's campaign finance laws.
    Mr. Trainor, I think your nomination is going to face 
obstacles unless we are making the FEC fully operational with a 
full complement of Commissioners from both sides of the aisle. 
Do you support pairing your nomination with one to fill the 
other Democratic seat that has been vacant for 1,100 days?
    Mr. Trainor. I think I would point back to the Majority 
Leader's statement earlier that the Commission is in need of 
new ideas and new perspectives across the board.
    Senator Udall. You don't think it is an issue of 
fundamental fairness, the process I have talked about of having 
a full committee and have us move forward with a Democrat 
paired with you. You don't buy that?
    Mr. Trainor. With regard to the process of it, I have 
been--as you mentioned, I have been pending before the Senate 
since 2017 and my life has been on hold since then. I left my 
law firm thinking that I was going to have a confirmation 
hearing some time last year in this process. With regard to the 
processes that the Senate engages in, I don't really know how 
to comment on----
    Senator Udall. Well, the other person has been delayed 
another two years beyond you, so you can imagine what they are 
going through. Now, I disagreed profoundly with Citizens United 
and the Supreme Court's other campaign finance decisions. 
However, we have to acknowledge that the court is not the only 
institution at fault.
    The gridlocked FEC, specifically a block of GOP 
Commissioners who nearly always vote in lockstep, has also 
played a big role in undermining our campaign finance laws. It 
wasn't the Supreme Court that gave the green light for secret 
money. Citizens United does the opposite. The case endorses 
transparency as a solution to the problem of mega campaign 
expenditures, but for the last decade GOP Commissioners have 
blocked every attempt to close loopholes in FEC regulations 
that allow secret money groups to flourish. They have refused 
to compel special interest groups that spend virtually all 
their money on political advocacy to register as PACs, which 
would require them to disclose their donors.
    It wasn't the Supreme Court that has allowed candidates to 
work hand-in-glove with super PACs and even raised money for 
them. The Supreme--the Court assumed these groups would be 
independent. Again, this was the FEC. We have the institution 
to thank for the spectacle of President Trump circulating at a 
super PAC fundraiser at his own hotel being plied for favors by 
million dollar donors.
    In the decade since Citizens United was decided, the FEC 
has made virtually no attempt to enforce even the inadequate 
coordination rules it does have on the books. Instead, the FEC 
is deadlocked over new transparency rules and failed to enforce 
the transparency rules that already exist. Pattern is the same, 
Democrats support transparency, Republicans oppose.
    The FEC currently has a backlog of around 300 unresolved 
cases, some of which deal with secret money groups and the $965 
million of dark money that has been spent in Federal campaigns 
since the Citizens United decision.
    Now, Mr. Trainor, do you believe in developing new rules to 
more fully disclose campaign donations and expenditures and 
aggressively enforcing campaign finance laws, or do you believe 
the ultra-wealthy have the right to keep multi-million dollar 
donations to political interest groups secret from the public 
when they try to influence our Government?
    Mr. Trainor. Thank you for your question. Let me tell you 
what I believe with regard to the organization's, first of all 
with regard to Citizens United. The Supreme Court said that the 
disclosure regime was one that was very valid.
    What we know from litigation that is currently pending is 
that organizations that spend money now have to disclose their 
donors and the FEC has taken the position that they will 
enforce that even though that case is on appeal.
    As it is currently, there is a disclosure regime in place 
for donors to nonprofit organizations that may engage in 
independent expenditures and I fully intend to comport with the 
Court's ruling while that is still going forward.
    Chairman Blunt. Thank you, Senator Udall. Senator 
Klobuchar.
    Senator Klobuchar. Chairman, just this morning we received 
a letter signed by 14 democracy groups, including several by 
bipartisan and nonpartisan groups who oppose this nomination to 
the FEC. Without objection, I would like to enter the letter 
into the record.
    Chairman Blunt. Without objection.
    [The information referred to was submitted for the record.]
    Senator Klobuchar. Thank you very much. For years the FEC 
has frequently deadlocked in votes about whether the agency's 
staff should investigate potential violations. Many believe 
that these deadlocks have significantly impaired the agency's 
ability to investigate potential criminal activity and enforce 
the law. What do you think needs to be present for the FEC to 
conclude that a ``reason to believe'' exists to open an 
investigation, Mr. Trainor?
    Mr. Trainor. I believe that there has to be credible and 
valid evidence presented to the Commission that falls squarely 
within the statutory requirements to show that the statute 
itself has been violated.
    Senator Klobuchar. Describe--do you have a situation you 
could describe from the last four years in which you believe 
someone got away with breaking Federal campaign finance law and 
what the appropriate punishment should be?
    Mr. Trainor. I think probably the most high-profile case of 
someone breaking Federal campaign finance law was the Right to 
Rise super PAC where there was foreign money involved and the 
FEC slapped them down in that situation.
    Senator Klobuchar. But you will agree that there have been 
cases where people have broken the law where there hasn't been 
any action?
    Mr. Trainor. I don't have a full understanding of 
everything that has gone on at the FEC being from Texas and 
only practicing infrequently in front of the Commission, so I 
don't know that I can characterize everything that has gone on 
there.
    Senator Klobuchar. In the 2010 Supreme Court case Doe v. 
Reed, Justice Scalia wrote that, ``requiring people to stand up 
in public for their political acts fosters civic courage 
without which democracy is doomed.''
    In a 2015 interview with Time Magazine, President Donald 
Trump called for more transparency of donors behind big money 
groups stating, ``I don't mind the money coming in, let it be 
transparent, let them talk, but let there be total 
transparency.'' Do you think that is correct?
    Mr. Trainor. Well, Justice Scalia first espoused that 
opinion in McIntyre v. Ohio, a school board case out of Ohio, 
and at the end of the day the two cases CREW v. FEC that are 
pending here in DC allow for that type of transparency. The 
Commission is currently enforcing transparency of those 
organizations. If I am to get to the Commission, I will follow 
the dictates of the Court.
    Senator Klobuchar. Okay, but here is my issue. There was a 
famous 1958 Supreme Court case that protected the membership 
list of the Alabama NAACP because NAACP members in the 1950's 
faced persecution, violence, and death for their political 
activity. You have repeatedly invoked the NAACP case to argue 
that wealthy political donors should be able to stay secret. 
How do these wealthy donors compare to the Civil Rights 
activists who faced mortal danger?
    Mr. Trainor. I think you have to take an overall view of 
the--as I said in my opening statement, that the First 
Amendment is our touchstone when looking at campaign finance. 
We are only allowed to regulate what the courts have said we 
can regulate with regard to the First Amendment.
    With the NAACP v. Alabama being out there, it does in fact 
say that individuals can donate anonymously to that 
organization because they have a fear of reprisal.
    That is still good law. In a situation where an individual 
may have a fear of reprisal, I think that NAACP v. Alabama 
clearly applies. I think that the state of the law is in flux 
with regard to the Crew cases that are pending here, and if 
they ultimately make it to the Supreme Court, they may have to 
revisit the holding in NAACP v. Alabama.
    Senator Klobuchar. I understand you submitted a letter to 
the Commission's General Counsel regarding steps you will take 
to recuse yourself from matters where there is a conflict of 
interest. You served as counsel for President Trump's 2016 
campaign and worked at the Department of Defense during the 
first few months of the Trump Administration. Your letter does 
not indicate that you intend to recuse yourself from matters 
related to the Trump campaign. Do you plan to recuse yourself 
from such matters?
    Mr. Trainor. My plan is to follow the same recusal regime 
as every other member of the Commission. In every situation 
where a matter involving President Trump comes up, I can commit 
that I will have a conversation with the ethics advisors at the 
Commission to take the appropriate steps should recusal be 
necessary.
    Senator Klobuchar. You are not going to just recuse 
yourself from the beginning on the Trump matters?
    Mr. Trainor. Not as a blanket recusal. I don't think that 
there is any one at the Commission currently who has a blanket 
recusal and I think we should all follow the same rules and 
guidelines.
    Senator Klobuchar. Last question. In 2006, the Supreme 
Court held in League of United Latin American Citizens v. Perry 
that the Texas legislature violated the Voting Rights Act 
because the plan was drawn to deny Latino voters in District 23 
the opportunity to elect a candidate of their own choosing. You 
have done significant redistricting work in Texas during your 
career. Did you do any work on the 2003 map and did the Supreme 
Court get it right in this case?
    Mr. Trainor. The work, as I was explaining earlier, the 
work I did in 2003 was as a non-lawyer staffer for a member of 
the Texas legislature who carried that particular piece of 
legislation. The answer to your question is, I did do work on 
it in that I administratively processed, that type of thing----
    Senator Klobuchar. I heard that. How about the Supreme 
Court's ruling?
    Mr. Trainor. I do believe that LULAC v. Perry is good law. 
Yes.
    Senator Klobuchar. Okay. Thank you.
    Chairman Blunt. Mr. Trainor, you mentioned that the 
standards that must be met by the Commission to open 
investigations be credible evidence. Let's go beyond that. What 
would your process be for enforcing--for approaching 
enforcement actions at the agency? Would you vote to enforce 
campaign finance laws?
    Mr. Trainor. If the credible evidence shows that there is a 
violation, I absolutely will enforce the statute. More 
importantly than that, I want to work with the other 
Commissioners to come to a consensus when there is a violation 
of the statute, instead of having a deadlock situation, find 
areas where we can come together in a bipartisan manner when 
someone has clearly violated the law.
    Chairman Blunt. Well on that point, you know, there have 
been real concerns that the FEC has been hopelessly deadlocked 
over and over again. The balance of numbers, of members, 
Republican and Democrat, has been an important part of the way 
this institution was set up. But if you were confirmed, what 
would you do to try to alleviate that deadlock and work with 
your fellow Commissioners?
    Mr. Trainor. Well, the deadlock that we currently see at 
the Commission, I believe to be a function of the over extended 
stays of Commissioners at the agency. I think Congress, in its 
wisdom, putting in place a 6-year term is very important to 
allow people to come in with fresh ideas and new ways of 
evaluating the law.
    As you see the law evolve in this area, you need people who 
come from the world of practitioners into the Commission who 
recognize what kind of effect it has on the regulated community 
to have a deadlock situation, what type of burden it puts on 
the private individuals to have to go litigate when there is a 
deadlock situation.
    My friend Dave Warrington reminded me last night the judge 
that he clerked for had a sign on the other side of his bench 
that said, remember you used to be a lawyer in this court to 
remind him that he needed to treat everyone fairly and move 
judiciously through his cases.
    When I get to the Commission, I want to do that. I want to 
remember that I used to be on the other side of that dais 
representing individuals and that deadlock situations are not 
helpful to the regulated community.
    Chairman Blunt. On the topic of who has been waiting to 
serve on the Commission, I might point out again, this is the 
only nominee that we have had from the White House since 2013. 
Your first nomination was in 2017. Then again '18, '19, and 
'20.
    In terms of time on task of trying to get to the 
Commission, we certainly appreciate that. Again, other 
Presidents have been slow in filling vacancies. There have been 
two vacancies, I think, since 2013 that have not been filled by 
anybody. Senator Cortez Masto, do you have another question?
    Senator Cortez Masto. Thank you. I appreciate those 
comments, Senator, but can I just followup on some answers that 
you gave to Senator Klobuchar, and it goes back to the question 
that I had originally asked you with respect to the 2003 maps 
in Texas. You said you worked as a non-staffer for the 
legislature on those maps--excuse me, a non-attorney staffer. 
What was your title as a staffer?
    Mr. Trainor. I was Chief of Staff.
    Senator Cortez Masto. You were Chief of Staff to the 
Representative working on those. Okay. What was your specific 
involvement with respect to those maps for redistricting in 
2003?
    Mr. Trainor. I would do--so staff at the Texas legislature 
is very, very small.
    Senator Cortez Masto. You are the Chief of Staff----
    Mr. Trainor. I am the Chief of Staff of two people.
    Senator Cortez Masto. Okay.
    Mr. Trainor. We did everything from coordinating what rooms 
the committee would meet in to making sure that the Legislative 
Counsel's Office----
    Senator Cortez Masto. Did you help design the legislative 
districts adopted for the 2002 elections?
    Mr. Trainor. No.
    Senator Cortez Masto. You did not. I guess I am confused 
then because in your resume, which is online for Beirne, 
Maynard & Parsons, at the end of it, it says that ``Trainor has 
been intimately involved in Texas redistricting, helping to 
design the Texas House Legislative districts adopted for the 
2002 election. During the third called special session of 2003, 
he coordinated the maps and legal aspects of passage and 
Department of Justice pre-clearance of HB3, the new 
congressional maps adopted for the 2004 election.'' Is that 
statement as part of your resume, which is online for the firm 
that you worked for, inaccurate?
    Mr. Trainor. I think it is probably some marketing license 
by the marketing individuals at the firm.
    Senator Cortez Masto. That is your resume. It is not 
something that you have pre-clearance and said, yes, I approve 
this, this should be on representing what I have done in the 
past with respect to my work on redistricting?
    Mr. Trainor. With regard to HB3. I mean, I did do 
coordinating efforts for the individuals who worked on the map. 
I spent time working with them, making sure that they had 
everything that they needed. In a redistricting situation, in a 
state legislative body with 150 members of the House, they are 
constantly bringing everyone in for meetings to talk about each 
individual district.
    I did spend time coordinating that. I did travel with 
Representative King to the Department of Justice for the pre-
clearance meeting when he came here. They had asked for 
additional information, and so he and the Senate sponsor came 
to meet with the Department of Justice, and I, you know, sat 
through that meeting.
    Senator Cortez Masto. I appreciate your testimony here 
today. I do think it is doing a disservice to the truth here, 
and I have concerns that first of all, you are Chief of Staff. 
We all have a Chief of Staff. We know what our Chief of Staff 
does, and for you to come back and say that what was on your 
resume is inaccurate and that you were not intimately involved 
has concerns for me as somebody that I am looking to appoint to 
the FEC, to an important, I think, body which, by the way, 
should have been paired with a Democrat.
    I appreciate the comments from the Chairman, but I do think 
if we are going to make a statement as Congress, that we have 
to fight for one another when appropriate and I think it should 
have been paired. I think the FEC needs to be fully staffed and 
doing more but I have concerns that what I am hearing today is 
a lack of truth coming from you because you want to be 
appointed to this position instead of stepping up and being 
proud of the work that you have done.
    I disagree with the work but it is the work that you have 
done over the years, not only as a staffer, but now as an 
attorney. There are statements that you were very proud of 
trying to get more Republicans back in office. You are on 
record on saying that. If that is who you truly are, own it. 
That doesn't--but I have concerns about the misinformation.
    I appreciate you being here, but for that reason, I cannot 
support you in this position and I appreciate you giving me the 
opportunity to speak.
    Chairman Blunt. Thank you, Senator. Senator Klobuchar.
    Senator Klobuchar. Thank you. I appreciate Senator Cortez 
Masto's work there and research, and thank you for your 
highlighting of this. I wasn't aware of that. I wanted to sort 
of take what the Senator has done here and just put it into the 
real world. I know the questions were about the maps, but we 
also know that there are big problems in Texas with regard to 
everything from voting lists.
    In fact, the Secretary of State resigned there recently 
because of the problems that he had created but also there is 
problems with access to voting, beyond even the redistricting, 
which creates an obvious problem with access to voting. Super 
Tuesday highlighted ongoing voting access and voting rights 
issues. In Texas reports indicate that people waited hours in 
line to vote.
    Many have pointed to the fact that in Texas, the long lines 
are the direct result of policies designed to disenfranchise 
voters including the closure of polling places in heavily 
minority areas. Some African-American voters waited more than 5 
hours in line. When asked why they stayed in line, one voter 
told a reporter, ``we thought they were making us wait on 
purpose so we motivated each other.''
    At Texas Southern University, Hervis Rogers, an African-
American man, waited 7 hours to vote after casting a ballot. 
Reporters asked him where he was headed after waiting for so 
long. He said he had to go to work. Mr. Trainor, you have 
worked on elections in Texas for a long time as Senator Cortez 
Masto has just pointed out. You served as general counsel to 
the Texas Secretary of State. Why is this happening?
    Mr. Trainor. I think the problems that we saw most recently 
in the primary in Texas particularly, in Harris County, stem 
from the fact that the County for the first time in a major 
election went to countywide voting locations where you could 
vote at any voting location.
    The County selected those voting locations through the 
Commissioner's Court, and when they did that, they did in fact 
close down some because they were consolidating because now you 
didn't have to go to your particular precinct to vote. It did 
create lines. I think it is a technological issue that created 
the problem.
    I worked with individuals to notify the Secretary of State 
that they were going to have these issues in Harris County. 
Some of those polling locations are schools. Those schools have 
the ability to block cell phone signals. Because you have a 
countywide voting location, you need to have a constant online 
access to be able to update the voting rolls when someone 
votes, and in certain situations in Harris County, they 
literally would have to take a machine outside of the school so 
that it could upload frequently to get downloaded information 
as to who voted and bring it back in. They had only tested that 
system in municipal elections in May, a very small election.
    When you had the turn out that we had in Texas recently, 
massive turnout in both the Democrat and Republican primary, 
with a system that was untried with that number of people, I 
think that is what led to the long lines. My work as general 
counsel at the Secretary of State's office, it was right after 
HAVA had passed and we were implementing statewide voter lists 
that HAVA required and we worked intimately with all of the 
counties to be--to make sure that they had the type of access 
that they needed and the type of voting machines that the 
counties wanted in compliance with HAVA.
    Senator Klobuchar. You know, I said from the beginning I 
opposed your nomination, but if you are confirmed, what will 
you do about this? You will have the power of FEC Commissioner. 
Will you do anything to try to change this, what is happening 
in your own state?
    Mr. Trainor. Well, obviously, none of the voting activity 
falls within the purview or jurisdiction of the Federal 
Election Commission, but in my own state, as an individual who 
votes there, you know, I can still continue to comment on these 
issues and I think it is an important issue for Harris County 
to look at as we get ready for the November election where I 
think they will be even higher turnout.
    Senator Klobuchar. Thank you.
    Chairman Blunt. Mr. Trainor, when you worked for the 
Secretary of State, the Secretary of State was Roger Williams 
who has been a member of the U.S. House for some time now, so--
--
    Mr. Trainor. That is correct.
    Chairman Blunt. Your recent--when you said you contacted 
the Secretary of State anticipating these problems, you were 
doing that not as part of the office----
    Mr. Trainor. Not as part of the Office. I am Assistant 
General Counsel, currently, for the Republican Party of Texas, 
and both parties, both the Republicans and Democrats, have 
contacted the Secretary of State's Office to discuss the issues 
present in Harris County with countywide polling locations.
    Chairman Blunt. How is Harris County, how are those 
elections administered? Are they administered by an elected 
official or an appointed board?
    Mr. Trainor. Well, they have an elections administrator who 
is hired, and the County Commission hires that individual and 
works closely with the County Clerk who is an elected Democrat.
    Chairman Blunt. They don't, they report then--work closely 
with the County Clerk appointed by the County Commission, the 
election authority----
    Mr. Trainor. Correct.
    Chairman Blunt. But you tried to alert them to the fact 
that this would be a problem?
    Mr. Trainor. Yes. We had identified that issue in the May 
municipal elections that it would create long lines and 
ultimately that came to pass.
    Chairman Blunt. Obviously, if your cell phone doesn't work, 
you are not going to be able to call the help number or 
whatever happens there and maybe not even be connected to any 
online information the county office is putting out.
    Mr. Trainor. That is correct. Countywide voting in Texas 
has worked very well in some of our rural communities. It 
started in Lubbock. It has worked very well. But as we you get 
to the more populous areas, Dallas and Houston, countywide 
polling locations have become more and more problematic because 
the level of administration that it takes.
    Chairman Blunt. This is way off field here.
    Mr. Trainor. Yes. It is very far afield.
    Chairman Blunt. As a former election official and state 
election official as well, the legislature decided that 
counties would have an option for countywide voting or every 
County would have countywide voting where you could just go to 
any polling place?
    Mr. Trainor. In Texas, countywide voting started as a pilot 
project for three rural counties in Texas. It has slowly been 
adopted by more counties on a pilot project basis. Then, after 
the most recent legislative session, it was made available to 
all counties upon approval from the Secretary of State's 
Office.
    Chairman Blunt. You weren't part of the Secretary of 
State's Office?
    Mr. Trainor. I was not part of the Secretary of State 
Office.
    Chairman Blunt. When that was done or even when that 
legislation was passed?
    Mr. Trainor. Not at all.
    Chairman Blunt. But you did step in and try to give advice 
that this was going to be a problem?
    Mr. Trainor. Yes.
    Chairman Blunt. Could be a problem----
    Mr. Trainor. Yes.
    Chairman Blunt. Alright. Well, thank you for being here 
today. I want to thank you for joining us. The record will 
remain open until noon on Friday, March the 13th. Any questions 
you get in the record and for the record, I would request that 
you respond to as quickly as you can.
    Chairman Blunt. The committee is adjourned.
    [Whereupon, at 12:22 p.m., the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------   
                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                              



  

                                  <all>
</pre></body></html>
